            versight

            eport

 PERFORMANCE OF EXTERNAL QUALITY CONTROL REVIEWS
      BY MILITARY DEPARTMENT AUDIT AGENCIES



Report Number D-2000-6-009           September 20, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFAA                 Air Force Audit Agency
AAA                  Army Audit Agency
NAS                  Naval Audit Service
PCIE                 President’s Council on Integrity and Efficiency
                      Office of the Inspector General, DoD
Report No. D-2000-6-009                                         September 20, 2000
  (Project No. D2000OA-0095)

           Performance of External Quality Control Reviews by
                  Military Department Audit Agencies

                               Executive Summary

Introduction. The Government auditing standards issued by the Comptroller General
of the United States require organizations conducting audits in accordance with
Government auditing standards to undergo an external quality control review at least
once every 3 years by an organization not affiliated with the organization being
reviewed. The external quality control review should determine whether the
organization’s internal quality control system is in place and operating effectively to
provide reasonable assurance that established auditing standards were followed. Prior
to FY 1999, the Office of the Inspector General, DoD, conducted external quality
control reviews of the Military Department audit agencies. However, during the
September 25, 1998, DoD Audit Chiefs’ Council meeting, it was agreed that the
Military Department audit agencies would conduct external quality control reviews on
each other in FY 1999. In addition, the Council agreed that the agencies would use the
President’s Council on Integrity and Efficiency external quality control review guide to
perform the reviews.

Objectives. The objectives of the evaluation were to determine whether the Military
Department audit agencies' process for conducting external quality control reviews of
each other, as established by the DoD Audit Chiefs’ Council, was working as planned
and to identify the types of findings being reported. Specifically, we determined
whether reliance could be placed on the external quality control review results to
support the Inspector General, DoD, responsibilities for oversight of Military
Department audit agencies.

Results. The Military Department audit agencies successfully implemented an external
quality control review process. The results of the FY 1999 reviews indicated that, in
each case, the system of quality control was designed in accordance with the quality
standards established by the President’s Council on Integrity and Efficiency and each
organization’s internal quality control system was operating effectively. We can rely
on the external quality control review results in supporting the Office of the
Inspector General, DoD, oversight responsibilities.

Management Comments. We provided a draft of this report on August 14, 2000. No
written response was required, and none was received. Therefore, we are publishing
this report in final form.
Table of Contents

Executive Summary                       i


Introduction
     Background                         1
     Objectives                         2

Finding
     External Quality Control Reviews   3

Appendixes
     A. Evaluation Process
         Scope                          7
         Methodology                    7
         Prior Coverage                 8
     B. Report Distribution             9
Background
           Government Auditing Standards. Government auditing standards issued by
           the Comptroller General of the United States require that organizations
           conducting Government audits have an appropriate internal quality control
           system in place and undergo an external quality control review. Organizations
           conducting audits should undergo an external quality control review at least once
           every 3 years by an organization not affiliated with the organization being
           reviewed. The external quality control review should determine whether the
           organization’s internal quality control system is in place and operating
           effectively to provide reasonable assurance that established auditing standards
           were followed. An external quality control review under the Government
           auditing standards should meet the following requirements.1
                    •   Reviewers should be qualified and have current knowledge of the
                        type of work to be reviewed and the applicable auditing standards.

                    •   Reviewers should be independent of the audit organization being
                        reviewed, its staff, and its auditees whose audits are selected for
                        review.

                    •   Reviewers should use sound professional judgment in conducting and
                        reporting the results of the external quality control review.

                    •   Reviewers should select audits that provide a reasonable cross-section
                        of the audits conducted in accordance with the Government auditing
                        standards or select audits that provide a reasonable cross-section of
                        the organization’s audits, including one or more audits conducted in
                        accordance with Government auditing standards.

                    •   The review should include a review of the audit reports, working
                        papers, and other necessary documents, as well as interviews with
                        the reviewed organization’s professional staff.
                    •   A written report should be prepared communicating the results of the
                        external quality control review.

                    •   External quality control review procedures should be tailored to the
                        size and nature of an organization’s audit work.

           President’s Council on Integrity and Efficiency Review Guide. The
           President’s Council on Integrity and Efficiency (PCIE), “Guide for Conducting
           External Quality Control Reviews of the Audit Operations of Offices of
           Inspector General,” April 1997, (Review Guide) presents the standards and
           detailed guidance for conducting external quality control reviews of the audit
           operations of audit organizations. The Review Guide was developed to promote
           consistency in conducting the reviews. An external review requires

1
    External quality control reviews conducted through or by the President's Council on Integrity and
    Efficiency meet these requirements.



                                                      1
     considerable professional judgment on the part of the review team. The
     guidance contained in the PCIE Review Guide is advisory in nature and is not
     intended to supplant the review team’s professional judgment on the approach to
     take or the specific procedures to be performed in specific reviews. The PCIE
     external quality control review program is intended to be positive and
     constructive, rather than negative or punitive.

     DoD Audit Chiefs’ Council. The DoD Audit Chief's Council is composed of
     the heads of the DoD audit organizations. The organizations include the office
     of the Assistant Inspector General for Auditing, DoD; the Defense Contract
     Audit Agency; the Army Audit Agency (AAA); the Naval Audit Service (NAS);
     and the Air Force Audit Agency (AFAA). The council meets periodically under
     the leadership of the Inspector General, DoD, to discuss audit issues and matters
     that affect the DoD audit community. The September 25, 1998, DoD Audit
     Chiefs’ Council meeting established that Military Department audit agencies
     would conduct external quality control reviews on each other in FY 1999. In
     addition, the Council agreed that the agencies would use the PCIE Review
     Guide to perform external quality control reviews.

     Review Schedule. The Military Department audit agencies agreed on the
     following scheduling option for FY 1999.

             •   The AAA would review the NAS

             •   The NAS would review the AFAA.

             •   The AFAA would review the AAA.

Objectives
     The objectives of the evaluation were to determine whether Military Department
     audit agencies' process for conducting external quality control reviews of each
     other, as established by the DoD Audit Chiefs’ Council, was working as
     planned and to identify the types of findings being reported. Specifically, we
     determined whether reliance could be placed on the external quality control
     review results to support the Inspector General, DoD, responsibilities for
     oversight of Military Department audit agencies.




                                         2
           External Quality Control Reviews
           The Military Department audit agencies successfully implemented an
           external quality control review process. Using the PCIE Review Guide,
           review teams completed assessments of the AAA, NAS, and AFAA.
           The results of the FY 1999 reviews indicated that, in each case, the
           system of quality control was designed in accordance with the quality
           standards established by the PCIE and that each organization’s internal
           quality control system was operating effectively. We can rely on the
           audit agencies' external quality control review results to support the
           Office of the Inspector General, DoD, oversight responsibilities.

Quality Control Review Process
    The audit agencies successfully implemented an external quality control review
    process. Using the PCIE Review Guide, review teams completed assessments
    of the AAA, NAS, and AFAA. In addition, discussions with personnel
    involved indicated that, overall, the process worked well. However,
    Government auditing standards do not allow the audit agencies to rotate external
    quality control reviews among each other.

    PCIE Review Guide Checklists. The audit agencies used the PCIE Review
    Guide for the external quality control review as agreed to at the
    September 25, 1998, DoD Audit Chiefs’ Council meeting. The review
    approach advocated by the PCIE Review Guide is to:

           •   gain an understanding of the reviewed organization’s audit operation
               and its internal quality control system;

           •   gain an understanding of the organization’s internal quality control
               program, including a review of any internal reports;

           •   use the knowledge obtained from the preceding steps;

           •   select the offices and audits to be reviewed and the nature and extent
               of the tests to perform; and

           •   review functional areas and individual audits.

    To meet the objectives described above, the PCIE Review Guide contains
    several checklists as guidance, as follows:

           •   Appendix A is a questionnaire designed to obtain general information
               about an audit organization and its internal quality control system.

           •   Appendix B contains guidance to help document the review team’s
               understanding and to evaluate the adequacy and quality of the audit
               organization’s policies and procedures.




                                        3
       •   Appendix C contains guidance on assessing the design of the internal
           quality control program.

       •   Appendix D contains general guidance on reviewing internal quality
           control reports.

       •   Appendix F is a checklist for reviewing individual performance
           audits.

Augmentation of Checklists. To assist in their reviews, the audit agencies’
review teams augmented the checklists with additional steps and references from
each audit agency's policies and procedures. For example, for the AAA
external quality control review of the NAS, the AAA added steps to the PCIE
Review Guide checklist for individual NAS performance audits. Those steps
were added to the review of NAS quality control and asked questions such as
whether the draft report was referenced prior to issuance and whether the
referencer was independent. In addition, specific citations on quality control
from the Naval Audit Handbook were included in the checklist.

Satisfaction with the Process. Discussions with personnel from the audit
agencies revealed that the external quality control review process worked well.
We held discussions with 13 personnel from the audit agencies who were
involved in conducting the reviews, and they expressed overall satisfaction with
the external quality control review process. Items that personnel stated worked
particularly well included the following.

       •   The memorandums of understanding between audit agencies provided
           the rules for the external quality control reviews.

       •   Pre-planning meetings between the audit agencies also assisted in
           establishing the rules for the review. Conducting presentations on
           using the PCIE Review Guide and experiences from prior external
           quality control reviews also helped.

       •   Obtaining as much information in advance of the reviews enabled the
           review teams to incorporate specific sentences and references from
           the reviewed agencies' policies and procedures into the PCIE Review
           Guide checklists.

       •   Using point papers during the review. At on-site exit conferences,
           the visiting auditors provided the site manager with a point paper that
           summarized all the issues.

       •   The external quality control reviews enabled the personnel involved
           to gain an understanding of another audit organization’s methodology
           and how other personnel were working.

Rotation of Assignments. The Government auditing standards do not allow
audit agencies to rotate external quality control reviews among each other
because an audit organization is not permitted to review the organization that
conducted its most recent external quality control review. The Government
auditing standards requirement is intended to ensure that independence is


                                    4
    maintained both in appearance and fact. With only three organizations
    involved, assignments cannot be rotated. For example, the NAS cannot review
    the AAA for the FY 2002 external quality control review because the AAA
    reviewed the NAS for the FY 1999 review. As such, the NAS would have to
    review the AFAA again in FY 2002. We agree that there was a conflict
    between the Government auditing standard and the external quality control
    review plan. However, the DoD Audit Chiefs can reassess the external quality
    control review plan before the scheduled FY 2002 reviews and change the plan
    if necessary.

Types of Findings Reported
    For each of the three reviews, the review teams reported that the quality control
    system was designed in accordance with the quality standards established by the
    PCIE. Further, the review teams reported that each organization’s internal
    quality control system was operating effectively to provide reasonable assurance
    that audit personnel were following established policies, procedures, and
    applicable auditing standards.

    The review teams also made observations and suggested actions to the audit
    agencies on certain areas to strengthen their systems of quality control.
    Generally, the audit agencies took action to implement the teams' review
    suggestions, except that the AFAA had not established a formal system to track
    all open recommendations from internal quality control reviews. AFAA
    Instruction 65-105, “Internal Quality Control Review Program,” January 14,
    2000, requires the establishment of such a system. However, the AFAA
    completed action to establish a follow-up system during our review.

Reliance on External Quality Control Reviews
    We can rely on the audit agencies' external quality control review results in
    supporting the Office of the Inspector General, DoD, oversight responsibilities.
    Working papers documented the work performed and conclusions reached, and
    there were no indications that any significant deficiencies were found but not
    reported. In addition, the review teams used the PCIE Review Guide checklists.
    Also, memorandums of understanding were prepared, there were no indications
    of any impairment to independence, experienced audit staff were assigned to the
    review, and a reasonable cross-section of audit reports was chosen to review.

    Memorandums of Understanding. The audit agencies prepared memorandums
    of understanding to establish the framework for the reviews. Items outlined in
    the memorandums were the contact persons, the review schedule and
    coordination, the scope of the review, the results report process, and retention
    of and access to the working papers.

    Working Papers and Reports. Each of the review teams prepared working
    papers to document the work performed and the conclusions reached for the
    review, and there was no indication in the working papers that any significant
    deficiencies were found but not reported. In addition, report conclusions were



                                        5
    supported by and referenced to the working papers. We did not retest any of
    the results because the review of the working papers allowed us to place reliance
    on the review results.

    Impairment to Independence. There were no indications that the audit
    agencies had any impairments to independence. According to the PCIE Review
    Guide, the review team members should meet the independence standards of the
    Government auditing standards. In addition, former employees employed
    within the past 2 years of the organization being reviewed should generally not
    be selected to be part of the review team. Based on the impairments listed in
    the Government auditing standards, nothing came to our attention to indicate
    that the agencies had any impairments to independence. In addition, none of the
    agency review team members had been employed by the organization being
    reviewed for the last 2 years.

    Experience of Review Staff. An experienced audit staff was assigned by the
    Military Department audit agencies to conduct the external quality control
    reviews. Each review team had seven to eight personnel who were mainly high
    graded operational auditors with many years of experience. For example, two
    members of the NAS review team had 27 and 20 years of auditing experience,
    respectively.

    Reasonableness of Reports Selected. The Military Department audit agencies
    selected a reasonable cross-section of audit reports to review. Each review team
    selected six to eight audit reports to review as well as one to two internal quality
    control reports to review. The following criteria were used to select the audit
    reports to review.

           •   The location and size of the audit offices. Larger offices where
               working papers would be stored and numerous audits conducted were
               selected.

           •   The number of findings and recommendations. Audit projects with
               more significant results were selected.

           •   Audit identified potential monetary benefits. Audits that identified
               areas where funds could be put to other uses were selected.

           •   The amount of time charged to the project. Larger, more significant
               audits were chosen.

Conclusion
    Overall, the Military Department audit agencies’ external quality control
    reviews during FY 1999 worked well. As such, we have determined that we
    can rely on the results of the reviews to support our oversight responsibilities.




                                         6
Appendix A. Evaluation Process

Scope
    We based our review on the Government auditing standards relating to quality
    control, the PCIE Review Guide for external quality controls, and DoD policies
    and procedures in force from 1991 through 1999. In addition, we reviewed
    FY 1999 external quality control review reports of the Military Department
    audit agencies, pre-planning meeting notes, and memorandums of
    understanding. Each audit agency review team selected six to eight audit
    reports and one to two internal quality control reports to review. We reviewed
    all working papers supporting those reviews. We also discussed the external
    quality control review process with various personnel involved to determine
    whether there were any problems associated with or ways to improve the
    process.

Methodology
    To identify the types of external quality control review findings being reported,
    we obtained the FY 1999 Military Department audit agencies' external quality
    control review reports. To determine whether the process for conducting
    external quality control reviews was working as planned and whether reliance
    could be placed on the results, we discussed the process with various personnel
    and reviewed the audit agencies' working papers to determine whether the PCIE
    Review Guide was followed and whether any significant deficiencies were found
    but not reported. We did not retest the Military Department audit agencies'
    work performed for the external quality control review. In addition, we
    followed up with the audit agencies to determine whether the suggestions made
    by the review teams to improve internal quality control systems were
    implemented.

    Use Of Computer-Processed Data. We did not use computer-processed data to
    perform this evaluation.

    Evaluation Dates and Standards. We performed this evaluation from
    February through July 2000, in accordance with standards issued and
    implemented by the Inspector General, DoD.

    Management Control Program Review. The management controls over the
    Military Department audit agencies' process for conducting external quality
    control reviews of each other were adequate. We identified no material
    management control weaknesses. One of the methods an organization uses to
    determine whether it has any management control deficiencies is the
    consideration of inspections and other independent review reports. For the
    FY 1999 Statements of Assurance on Management Controls, the Military




                                        7
    Department audit agencies considered the results of the external quality control
    reviews when evaluating the adequacy and effectiveness of their management
    controls.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                        8
Appendix B. Report Distribution

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office




                                           9
Evaluation Team Members

The Deputy Assistant Inspector General for Audit Policy and Oversight, Office
of the Assistant Inspector General for Auditing, DoD, prepared this report.

Patricia A. Brannin
Wayne C. Berry
Martin T. Heacock
Robert L. Kienitz
